                                                                UNCLASSIFIED


                                               United States Department of State

                                            and the Broadcasting Board of Governors

                                                   Office of Inspector General

Office of Inspector General


                                                        Office of Audits



                                    Audit of Funding Provided by the

                               American Recovery and Reinvestment Act for

                               the Foreign Affairs Security Training Center


                                          Report Number AUD/CG-12-13, December 2011




                                                                Important Notice

                               This report is intended solely for the official use of the Department of State or the
                               Broadcasting Board of Governors, or any agency or organization receiving a copy
                               directly from the Office of Inspector General. No secondary distribution may be
                               made, in whole or in part, outside the Department of State or the Broadcasting Board
                               of Governors, by them or by other agencies of organizations, without prior
                               authorization by the Inspector General. Public availability of the document will be
                               determined by the Inspector General under the U.S. Code, 5 U.S.C. § 552. Improper
                               disclosure of this report may result in criminal, civil, or administrative penalties.



                                                               UNCLASSIFIED

                                                               United States Department of State
                                                               and the Broadcasting Board of Governors

                                                               Office of Inspector General


                                            PREFACE

        This report is being transmitted pursuant to the Inspector General Act of 1978, as
amended, and Section 209 of the Foreign Service Act of 1980, as amended. It is one of a series
of audit, inspection, investigative, and special reports prepared as part of the Office of Inspector
General's (OIG) responsibility to promote effective management, accountability, and positive
change in the Department of State and the Broadcasting Board of Governors.

         This report addresses the Department's compliance with Federal, Department, and
American Recovery and Reinvestment Act (Recovery Act) acquisition management practices.
The report is based on interviews with employees and officials of relevant agencies and
institutions, direct observation, and a review of applicable documents.

        OIG contracted with the independent public accountant, Cotton and Company, LLP, to
perform this audit. The contract required that the accountant perform its audit in accordance
with guidance contained in Government Auditing Standards, issued by the Comptroller General
of the United States. The independent public accountant's report is included.

        The Department generally managed Recovery Act funds effectively to meet program
goals and requirements. We did note, however, that the Department did not adequately post pre­
award and post-award notices on the Web site FedBizOpps, have evidence to support the
consideration of all architect-engineering firms with indefinite-delivery, indefinite-quantity
contracts during the contractor selection process, or evaluate subcontractor eligibility to perform
on the contractor's task order. In addition, the Department paid the contractor General and
Administrative expenses of_  (b) (4)  that were unallowable.

        OIG evaluated the nature, extent, and timing of the independent public accountant's
work; monitored progress throughout the audit; reviewed supporting documentation; evaluated
key judgments; and performed other procedures as appropriate. OIG concurs with the
independent public accountant's findings, and the recommendations contained in the report were
developed on the basis of the best knowledge available and were discussed in draft form with
those individuals responsible for implementation. ~IG's analysis of management's response to
the recommendations has been incorporated into the report. OIG trusts that this report will result
in more effective, efficient, and/or economical operations.

        I express my appreciation to all of the individuals who contributed to the preparation of
this report.



                                      Harold W. Geisel
                                      Deputy Inspector General
                                      UNCLASSIFIED





Audit of Funding Provided by the American Recovery and Reinvestment Act for the
Foreign Affairs Security Training Center


Office of Inspector General
U.S. Department of State
Washington, DC

Cotton & Company, LLP (referred to as “we” in this letter), has performed an audit of the U.S.
Department of State’s (Department) compliance with Federal, Department, and American
Recovery and Reinvestment Act (Recovery Act) acquisition management practices on the
Foreign Affairs Security Training Center project. We evaluated the Department’s performance in
complying with source selection, pre-award and post-award notices, contract administration, and
management control processes for contracts funded though the Recovery Act.

This performance audit, performed under Contract No. S-AQMMA-10-F0898, was designed to
meet the objective identified in the section “Objective” and in Appendix A, “Scope and
Methodology,” of this report.

We conducted this performance audit in accordance with Government Auditing Standards, issued
by the Comptroller General of the United States. We communicated the results of our
performance audit and the related findings and recommendations to the U.S. Department of State
Office of Inspector General.

We appreciate the cooperation provided by personnel in Department offices during the audit.


COTTON & COMPANY, LLP




Michael W. Gillespie, CPA, CFE
Partner

Alexandria, Virginia
September 2011



                                      UNCLASSIFIED

                                          UNCLASSIFIED




Acronyms

A&E              	architect-engineering
A/LM/AQM 	       Bureau of Administration, Office of Logistics
                 Management, Office of Acquisitions Management
CCR 	            Central Contractor Registration
Department 	     Department of State
DS 	             Bureau of Diplomatic Security
EPLS 	           Excluded Parties List System
FAR 	            Federal Acquisition Regulation
FASTC 	          Foreign Affairs Security Training Center
G&A              	General and Administrative
GSA 	            General Services Administration
IDIQ             	indefinite-delivery, indefinite-quantity
KCCT 	           Karn Charuhas Chapman & Twohey
MOU 	            memorandum of understanding
NEPA 	           National Environmental Policy Act
OIG 	            Office of Inspector General
Recovery Act 	   American Recovery and Reinvestment Act of 2009
WSP 	            Worldwide Security Protection




                                          UNCLASSIFIED

                                     UNCLASSIFIED



                                 TABLE OF CONTENTS


Section                                                                                Page
Executive Summary                                                                         1
Background                                                                                2
Program Review and Observations                                                           3
Objective                                                                                 5
Results of Audit                                                                          5
   Finding A. The Department Did Not Adequately Post FedBizOpps Notices                   5

   Finding B. The Department Did Not Have Evidence To Support the Evaluation of All

      Architect-Engineering Firms                                                         6

   Finding C. The Department Did Not Evaluate Subcontractor Eligibility To Perform 

      on the Contract                                                                     7

   Finding D. The Department Paid General and Administrative Expenses That Were
      Unallowable                                                                         8

List of Recommendations                                                                  11

Appendices
A Scope and Methodology                                                                  12

B Estimated Transferable Costs Between Queen Anne’s County and Other Sites as of 

   October 28, 2010                                                                      15

C Karn Charuhas Chapman & Twohey Task Order No. SAQMMA-09F-2071 Funding as 

   of Modification 11, Issued on March 8, 2011                                           16

D Bureau of Administration Response                                                      17





                                     UNCLASSIFIED

                                               UNCLASSIFIED


                                           Executive Summary

        The Department of State (Department), Office of Inspector General (OIG), Office of
Audits, engaged Cotton & Company, LLP (referred to as “we” in this report), to conduct a
performance audit of the Foreign Affairs Security Training Center (FASTC) project that received
funding provided by the American Recovery and Reinvestment Act of 2009 (Recovery Act).
This project will provide a training facility capable of supporting “hard-skills” security-related
training for the Department and the wider foreign affairs community. The project is managed for
the Department by its Bureau of Diplomatic Security (DS), working with the General Services
Administration (GSA), for site acquisition, planning, and selection and the Department’s Bureau
of Administration, Office of Logistics Management, Office of Acquisitions Management
(A/LM/AQM), for contract administration.

        The objective of the audit was to determine whether the Department complied with
source selection, pre-award and post-award notices, contract administration, and management
control processes over contracts issued with Recovery Act funds.

        We reviewed controls over Recovery Act funds of $69,141,848 obligated by the
Department for the FASTC project. Our audit included a task order under an indefinite-delivery,
indefinite-quantity (IDIQ) contract with the architect-engineering (A&E) firm Karn Charuhas
Chapman & Twohey (KCCT). Obligations under the task order were $10,093,376, and
expenditures using Recovery Act funds tested were $4,956,616. Our audit also included a
review of a $59,048,472 obligation to GSA.

       The Department generally managed Recovery Act funds effectively to meet Recovery Act
goals and requirements. We did note, however, that the Department did not adequately post pre-
award and post-award notices on the Web site FedBizOpps, have evidence to support the
consideration of all A&E firms with IDIQ contracts during the contractor selection process, or
evaluate subcontractor eligibility to perform on the KCCT FASTC task order. In addition, the
Department paid KCCT General and Administrative (G&A) expenses of (b) (4) that were
unallowable.

         The site-selection process for FASTC initially evaluated 30 sites. A site in Queen Anne’s
County, MD, was selected in November 2009. In June 2010, GSA and the Department
determined that the Queen Anne’s County site would no longer be considered a potential site for
FASTC because of local concerns regarding environmental and other land-use issues that could
delay the project for several years. Of the $5 million spent on the work performed on the initial
site, $2.25 million was site-specific and was not transferrable to another location. GSA and the
Department focused their search for an alternative site on public-owned properties to meet the
request made through a Presidential Memorandum1 for agencies to use existing public land
instead of purchasing new property. GSA evaluated approximately 40 sites against the revised
site criteria, with two sites still under consideration as of March 30, 2011.


1
    Presidential Memorandum, “Disposing of Unneeded Federal Real Estate,” issued on June 10, 2010.


                                                    1
                                               UNCLASSIFIED
                                         UNCLASSIFIED


        Department officials stated that the Department is waiting to secure a site before it revises
its timeline, since the original timeline will not be met.

       We made recommendations for the Bureau of Administration to post pre-award and post-
award notices according to requirements, maintain documentation, ensure that all subcontractors
are approved prior to working on the Recovery Act project, obtain reimbursement of          for
unallowable costs, and review future modification proposals.

        In its response to the draft report (see Appendix D), the Bureau of Administration agreed
with the report’s five recommendations, and OIG considers two recommendations closed and
three recommendations resolved, pending further action.

                                          Background
         The FASTC project will provide a training facility capable of supporting “hard-skills”
security-related training for the Department and the wider foreign affairs community. Hard-
skills training includes information on firearms familiarization, explosives awareness,
surveillance detection, counter-terrorist driving, weapons of mass destruction, and security
operations. Specialized requirements for this facility include tracks for developing skills for
counter-terrorist driving, indoor and outdoor firing and explosive ranges, mock urban
environments, and weapons and explosives storage facilities.

        With completion of this project, the facility is expected to be able to provide training for
up to 10,000 students per year. It also would consolidate training currently provided and
managed by DS at 15 disparate locations throughout the country and create efficiencies in
providing essential security training for the foreign affairs community. Department officials
stated that the Department’s existing security training infrastructure is insufficient to meet
present and future training needs.

       FASTC is being funded with funds provided by the Recovery Act and the Department’s
Worldwide Security Protection (WSP) program. Recovery Act funding provided $70,000,000,
and WSP funding of $43,786,252 is currently obligated. Future phases will be funded with WSP
and other Department funds.

        DS manages this project for the Department, working with GSA for site acquisition,
planning, and selection and with A/LM/AQM for contract administration. All requirements of
the agreement between the Department and GSA were specified within a memorandum of
understanding (MOU). The main requirements related to construction are as follows:

   	   Costs will be reimbursed by the Department. GSA will bill the Department on a monthly
        basis.

   	   Costs will include reimbursement of vendor invoices paid by GSA as well as standard
        administrative charges (calculated as a percentage of expenses) for project management
        and overhead costs.



                                              2
                                         UNCLASSIFIED
                                        UNCLASSIFIED


      The Department will provide all funding required by GSA to satisfy GSA’s obligations
       via a reimbursable work authorization.
      GSA is responsible for contracting all necessary vendors and managing contracts with
       those vendors for site acquisition.

                           Program Review and Observations

        The Department procured A&E services from KCCT for the development of a master
plan as well as for preparation of design documents for Phase I of the FASTC project.
Specifically, the Department issued a task order to KCCT under the Department’s existing IDIQ
contract for $10 million in Recovery Act funds for master planning, site-selection support,
environmental services, related surveys, cost estimation, and public affairs support for the
FASTC project.

        The remainder of the Recovery Act funds, $59 million, was obligated by the Department
to GSA through a reimbursable work authorization for FASTC project management, planning,
and consulting services to support site identification, evaluation, and acquisition; program
development; design; construction; construction management; and commissioning services. The
reimbursable work authorization is also subject to GSA standard fees of 4 percent for project
management and a sliding scale for overhead cost. An initial reimbursable work authorization
was issued for $2 million on June 24, 2009, for project management, planning, and consultation
for project site identification. The first amendment, on November 19, 2009, raised the agreement
to $28 million to provide design and construction services for Phase 1 of the project. The final
amendment for the remaining $29 million raised the total value of the agreement to $59,048,472
on June 14, 2010, to fund expected site acquisition costs and construction management.

        GSA led the site-evaluation project, initially reviewing 30 sites for which property
owners had responded to the opportunity posted on FedBizOpps. Numerous levels of detailed
analyses were conducted to eliminate sites that did not meet the Department’s evaluation criteria.
The initial review focused on acreage, distance, contiguous sites, easements, topography, utility
access, floodplains, and historic resources. Results eliminated 16 sites, leaving 14 sites that were
qualified for the second level of review. The second level of review included an evaluation for
costs; climate; transportation; amenities; and environmental, cultural, and geotechnical impacts.
Another four sites were eliminated, and 10 sites remained qualified for the third level of review,
which included market surveys and assessments for any ownership, legal dispute, transportation,
zoning, utilities, or acoustic issues. This third review resulted in three final sites.

        A final comparison of the three sites was performed, which outlined advantages and
disadvantages of each location and analyzed any known risk factors. Hunt Ray Farm in Queen
Anne’s County, Maryland, showed low-to-moderate risk factors, while the two other sites had
higher risk ratings in some categories. Because of the higher risk factors and because the site
configurations were not as suitable for the FASTC functions, the two sites were eliminated.
GSA then provided its recommendation for the Queen Anne’s County site. The A&E firm began
providing support services in the potential site assessment and evaluation process on July 30,
2009. The preferred Queen Anne’s County site was selected in November 2009.


                                             3
                                        UNCLASSIFIED
                                             UNCLASSIFIED


        On June 28, 2010, the Department and GSA determined that the Queen Anne’s County
site would no longer be considered a potential site for FASTC because of local concerns
regarding environmental and other land-use issues that could delay the project for several years.
Costs of $5 million were spent on this commercial site-selection process, which included master
programming, master planning, the site-selection process, an Environmental Assessment
conducted under the National Environmental Policy Act (NEPA),2 cost estimation, survey work,
and public relations. The Department’s Contracting Officer’s Representative for the A&E firm
estimated that $2.75 million of the $5 million spent can be transferred to another site location.
The amount incurred on the Queen Anne’s County site and the estimated transferrable costs are
detailed in Appendix B. According to Department officials, the FASTC team, which comprised
officials from the Department, GSA, and KCCT, was able to use the work performed on the
Queen Anne County site to refine the site-selection criteria and work processes. However,
Recovery Act funding of $2.25 million was spent on site-specific work that cannot be transferred
to a future preferred site.

         Because the Presidential Memorandum issued in June 2010 requested agencies to try to
use existing public land instead of purchasing new property, GSA and the Department focused
the search for FASTC on publicly owned properties. GSA evaluated approximately 40 sites
against the revised site criteria, which includes a four-step process to determine site viability for
placement of the FASTC project. Step 1 evaluated the site for public ownership, size, ability to
support continuous operations, climate conditions, and proximity to DS headquarters. Four sites
met step 1 criteria, and initial test fits were performed on these four sites. Two of the sites were
eliminated as fully occupied and thus were unable to accommodate FASTC. One of the
remaining two sites was then evaluated against and passed step 2 criteria for developable area,
compatible surroundings, ease of acquisition, life support and community support, and climate.
This site moved onto step 3, in which a feasibility study was completed. The other remaining
site is being evaluated under step 2 criteria and will proceed to step 3 if warranted. If it is
determined that the site can proceed to step 3, senior-level Department officials will make a
recommendation on which site will move to step 4, which is to have an Environmental Impact
Statement conducted under NEPA.3

        The initial schedule outlined in the U.S. Department of State American Recovery and
Reinvestment Act of 2009 External Program Plan, issued on July 10, 2009, indicated that site
acquisition would be completed by the end of 2009, a Phase I design-and-build contract would
be awarded in May 2010, and Phase I would be completed at the end of 2011. However, because
of the difficulties encountered by the Department and GSA in securing a suitable site, the initial
schedule will not be met. Department officials stated that they planned to prepare a revised
timeline once a site had been secured.

       The $5 million remaining on the A&E firm’s FASTC task order was realigned by
modifying the existing task order to provide for the same evaluation and design services at a new
site. The realignment of the remaining contract dollars as of Modification 11 to the task order is

2
  The National Environmental Policy Act of 1969, as amended (Pub. L. No. 91-190, 42 U.S.C. § 4321-4347, Jan. 1,

1970, as amended by Pub. L. No. 94-52, July 3, 1975; Pub. L. No. 94-83, Aug. 9, 1975; and Pub. L. No. 97-258 §

4(b), § 102 (42 U.S.C § 4332), Sept. 13, 1982.)

3
  Ibid. 


                                                  4
                                             UNCLASSIFIED
                                                UNCLASSIFIED


detailed in Appendix C. This modification specifically reallocates funding for the test fits
completed under step 2 and performs a cost comparison between two potential sites. An
additional modification is expected to allocate the remaining funds to the second feasibility
study, environment assessment support, master plan, and construction documents. The
Department, as of March 30, 2011, had not determined whether remaining funds on the A&E
firm’s task order will be sufficient to complete the master plan and construction documents
because of the additional feasibility study and test fits. Costs for feasibility studies can vary
from site to site depending on whether existing site information is readily available versus having
to gather and document site data into a report.

        Of the Recovery Act funding of $59,048,472 provided to GSA through reimbursable
work authorizations, $58,316,570 was still available as of March 31, 2011, in addition to the
WSP funding of $43,786,252 for project management, surveys, title searches, appraisals, site
acquisition/lease, construction, and the GSA management fee.

                                                   Objective
        The objective of the audit was to determine whether the Department complied with
source selection, pre-award and post-award notices, contract administration, and management
control processes over contracts issued with Recovery Act funds.

                                                Results of Audit
        The Department generally managed Recovery Act funds effectively to meet program
goals and requirements. The Department contracted with an existing firm with an IDIQ contract
for the A&E design work and had controls in place to monitor the contractor. The Department
followed Federal procedures for transferring funds to GSA through reimbursable work
authorizations. We did note, however, four areas that the Department should address.

Finding A. The Department Did Not Adequately Post FedBizOpps Notices
        The Department did not consistently post pre-award and post-award notices on
FedBizOpps for A&E services, but when it did post the notices, the postings did not contain all
the information required by the FAR.

        The FAR4 requires the posting of pre-award notices on FedBizOpps for contract actions,
including modifications exceeding $25,000. However, the Department did not post pre-award
notices for the three task order modifications, all of which exceeded $25,000, to the original task
order. One modification exceeded $500,000, which, according to the FAR,5 also required a post-
award notice. However, that notice was not posted.

        The post-award notice on FedBizOpps for the original task order did not include
the required rationale for award of a non-fixed-price contract. The FAR6 requires any
4
    FAR 5.704(a), “Publicizing preaward.”
5
    FAR 5.705(a)(1), “Publicizing postaward.”

                                                     5
                                                UNCLASSIFIED
                                             UNCLASSIFIED


contract action that “is not both fixed-price and competitively awarded” to be publicized
as an award notice that includes “the rationale for using other than a fixed-priced . . .
approach.” The description is to include “a statement specifically noting if the contract
action . . . was not fixed-price.”

        The Contracting Officer stated that he was aware of the posting requirements but that he
did not perform this task as intended because of competing priorities.

       Without the required postings on FedBizOpps, the public and other A&E firms with
Federal IDIQ contracts were not made aware of the rationale for awarding the contract to the
A&E firm and the subsequent task order modifications.

          Recommendation 1. We recommend that the Contracting Officer for the Department of
          State, Office of Acquisitions Management, ensure that pre-award and post-award notices
          are posted as required by the Federal Acquisition Regulation under the American
          Recovery and Reinvestment Act of 2009 on any future task orders or modifications made
          to Contract No. SALMEC-05-D-0051 using Recovery Act funds for the Foreign Affairs
          Security Training Center project.

          A/LM/AQM Response: A/LM/AQM agreed with the recommendation, stating that
          additional training has been provided to the individuals responsible for the solicitation
          and administration of the Recovery Act-funded actions and that the training and
          discussion “addressed the special and unique requirements necessary to correctly and
          successfully process and advertise [Recovery Act]- funded procurements from inception
          through completion.”

          OIG Analysis: Based on the response, OIG considers the recommendation closed.

Finding B. The Department Did Not Have Evidence To Support the
Evaluation of All Architect-Engineering Firms
       The Department did not maintain documentation to support the evaluation of all
A&E firms with IDIQ contracts. While the KCCT contract7 requires only that the other
A&E firms with IDIQ contracts with the Department be given fair opportunity, the pre-
award notice for the original task order implies a potential larger solicitation base outside
the Department, as it states that “the requirement will be solicited competitively between
companies awarded Indefinite Delivery Indefinite Quantity (IDIQ) contracts for AE
Design services within the United States.”

       The only documentation available to support source selection did not mention
consideration of other firms but stated that the A&E firm would be selected based on its
experience and that negotiations were underway. Department personnel stated that they had


6
    FAR 5.705(b). 

7
    Contract No. SALMEC-05-D-0051, sec.G.3, “Task Order Selection and Award.”


                                                  6
                                             UNCLASSIFIED
                                              UNCLASSIFIED


reviewed all technical qualifications of the other A&E firms on IDIQ contracts with the
Department but that they had not documented this review.

       The FAR8 states that the “documentation in the files shall be sufficient to constitute . . . a
complete background as a basis for informed decisions at each step in the acquisition process”
and “supporting actions taken.”

       Further, the KCCT contract9 states that “[c]ontractors shall be given a fair opportunity to
receive task orders under the contract” and that “[w]hen a requirement has been identified by the
program office, a technical representative(s) shall review/evaluate all of the contractor’s
qualifications packages.”

        Recommendation 2. We recommend that the Contracting Officer for the Department of
        State, Office of Acquisitions Management, ensure that documentation is maintained to
        support evaluation and selection efforts for any contracting action funded by the
        Recovery and Reinvestment Act for the Foreign Affairs Security Training Center project,
        including those actions issued under Contract No. SALMEC-05-D-0051.

        A/LM/AQM Response: A/LM/AQM agreed with the recommendation, stating that
        Branch staff have been advised of the requirement to obtain, maintain, and properly file
        documentation for all contract actions, including those funded by ARRA funds, and that
        the Branch Chief “places appropriate and necessary emphasis on the need to maintain
        file documentation.”

        OIG Analysis: Based on the response, OIG considers the recommendation closed.


Finding C. The Department Did Not Evaluate Subcontractor Eligibility To
Perform on the Contract
       The Department did not maintain documentation to show that it had reviewed any of the
18 subcontractors for eligibility purposes through either the Central Contractor Registration
(CCR)10 database or the Excluded Parties List System (EPLS).11

       KCCT was awarded A&E work on this project through a task order to its existing IDIQ
contract. The contract provided terms, conditions, and rates governing subsequent task orders.
Twelve subcontractors were identified in KCCT’s IDIQ contract, and six additional
subcontractors were included in the task order or modifications to it. Two of the subcontractors
included fixed-price costs in the time-and-materials-based modification, with no details to
support how the costs had been determined.

8
  FAR 4.801(b)(1)-(b)(2), “General.”

9
  Contract No. SALMEC-05-D-0051, sec. G.3.

10
   CCR is the official on-line registrant database for the U.S. Government. 

11
   The EPLS includes information regarding entities debarred, suspended, proposed for debarment, excluded or 

disqualified under the nonprocurement common rule, or otherwise declared ineligible from receiving Federal funds. 


                                                   7
                                              UNCLASSIFIED
                                             UNCLASSIFIED




        The FAR12 requires contracting officers to review EPLS prior to contract award to ensure
that no award is made to a listed contractor. The FAR13 also requires contracting officers to
verify subcontractor registration in the CCR database. We were able to obtain assurance
through searches of the database and EPLS that the 18 subcontractors who performed on the
contract were not identified as ineligible to provide services on this contract.

               Additionally, KCCT did not obtain and submit the required Department of
Defense (DD) Form 254, Contract Security Clearance Specifications, to the Department of State
for approval for 11 of the 18 subcontractors. Section H.10 of KCCT’s contract requires that a
DD Form 254 be submitted for each subcontractor before the subcontractor performs under the
contract.

       Without proper vetting of subcontractors, the Department cannot ensure that
subcontractors are eligible and qualified for performing work on Department contracts.

           Recommendation 3. We recommend that the Contracting Officer for the Department of
           State, Office of Acquisitions Management, ensure that all subcontractors are approved
           before they work on the Recovery and Reinvestment Act-funded Foreign Affairs Security
           Training Center project task order issued under Contract No. SALMEC-05-D-0051.

           A/LM/AQM Response: A/LM/AQM agreed with the recommendation, stating that
           prime contractors and contract specialists for each contract action will be reminded of the
           contract requirement stating that all subcontractors should be identified before the
           contractor hires them to perform under the contract. A/LM/AQM also stated that the
           contract specialist “will be required to review the excluded parties listing and contact
           [DS] to confirm security clearances as appropriate.”

           OIG Analysis: Based on the response, OIG considers the recommendation resolved.
           The recommendation can be closed pending OIG’s review and acceptance of AQM’s
           written guidance or procedures showing that prime contractors and contract specialists
           will review contract requirements and that the contract specialist will review the
           Excluded Parties List System and contact DS to confirm security clearances.

Finding D. The Department Paid General and Administrative Expenses That
Were Unallowable
        Modification 3 to Task Order No. SAQMMA-09F-2071 under IDIQ Contract
No. SALMEC-05-D-0051 with KCCT included a charge for G&A costs for                   which is
not an allowable cost under contract provisions. KCCT’s proposal for Modification 3, providing
public relations support, identifies this amount as a G&A cost under the Summary of Total
Direct Labor and Costs without any explanation as to how it will be assessed. Of the amount
outlined in the contract, Invoice 13057, submitted by KCCT to the Department, included G&A

12
     FAR 9.405(d)(4), “Effect of Listing.”
13
     FAR 4.1103(a)(1), “Procedures.”

                                                  8
                                             UNCLASSIFIED
                                           UNCLASSIFIED

costs of (b) (4)  or (b) (4) percent of the subcontractor’s cost of this invoice. The Department
paid this amount.

       The KCCT contract14 states that “rates for the required services shall be in accordance
with the fixed fully burdened hourly labor rates” and that the fixed hourly rates “include wages,
overhead, G&A, profit.”

        Additionally, the KCCT contract15 states: “Reimbursable expenses under this contract
shall not be burdened with overhead, G&A, or profit. Contractor’s labor associated with
reimbursable activities shall be included in the fixed rates of this contract.”

        The proposal did not identify G&A costs in the G&A markup on the subcontract costs
section of the proposal but instead included the G&A charge under Direct Labor Costs. The
Contracting Officer said that the unallowable costs had been overlooked during the review of the
proposal, as the costs were not identified under the G&A section of the proposal. The
Contracting Officer’s Representative said that she was not made aware of the IDIQ terms and
therefore was not aware that this charge would be unallowable.

       The Department paid KCCT unallowable costs of (b) (4)          No additional work is
expected to be billed on Modification 3; therefore, there is no risk of additional similar erroneous
payments.

          Recommendation 4. We recommend that the Contracting Officer for the Department of
          State, Office of Acquisitions Management, obtain reimbursement of (b) (4) paid for
          unallowable costs to Karn Charuhas Chapman & Twohey on Contract No. SALMEC-05-
          D-0051.

          A/LM/AQM Response: A/LM/AQM agreed to further evaluate the (b) (4) paid for
          apparent unallowable costs and stated that it will “take the necessary action to recover the
          funds.” A/LM/AQM further stated that “branch personnel will be trained and reminded
          of the requirement that all elements of price or cost must be reviewed . . . [so] that only
          allowable and allocable cost and price elements are allowed under the contract.”

          OIG Analysis: Based on the response, OIG considers the recommendation resolved.
          This recommendation can be closed when OIG reviews and accepts documentation
          showing that the (b) (4) has been reimbursed.

          Recommendation 5. We recommend that the Contracting Officer for the Department of
          State, Office of Acquisitions Management, review future modification proposals to Karn
          Charuhas Chapman & Twohey on Task Order No. SAQMMA-09F-2071 under Contract
          No. SALMEC-05-D-0051 to ensure that General and Administrative expenses are not
          included in the proposals.


14
     Contract No. SALMEC-05-D-0051, sec. B.5, “Prices/Costs.”
15
     Contract No. SALMEC-05-D-0051, sec. B.7, “Reimbursable Expenses.”

                                                9
                                           UNCLASSIFIED
                                UNCLASSIFIED


A/LM/AQM Response: A/LM/AQM agreed with the recommendation, stating, “Branch
personnel will be trained and reminded of the requirement that all elements of price or
cost must be reviewed . . . [so] that only allowable and allocable cost and price elements
are allowed under the contract.”

OIG Analysis: Based on the response, OIG considers the recommendation resolved.
The recommendation can be closed pending OIG’s review and acceptance of
documentation showing that branch personnel have been or are being trained and that the
requirement will be a guideline for reviewing future modification proposals.




                                     10
                                UNCLASSIFIED
                                      UNCLASSIFIED



                               List of Recommendations 


Recommendation 1. We recommend that the Contracting Officer for the Department of State,
Office of Acquisitions Management, ensure that pre-award and post-award notices are posted as
required by the Federal Acquisition Regulation under the American Recovery and Reinvestment
Act of 2009 on any future task orders or modifications made to Contract No. SALMEC-05-D-
0051 using Recovery Act funds for the Foreign Affairs Security Training Center project.

Recommendation 2. We recommend that the Contracting Officer for the Department of State,
Office of Acquisitions Management, ensure that documentation is maintained to support
evaluation and selection efforts for any contracting action funded by the Recovery and
Reinvestment Act for the Foreign Affairs Security Training Center project, including those
actions issued under Contract No. SALMEC-05-D-0051.

Recommendation 3. We recommend that the Contracting Officer for the Department of State,
Office of Acquisitions Management, ensure that all subcontractors are approved before they
work on the Recovery and Reinvestment Act-funded Foreign Affairs Security Training Center
project task order issued under Contract No. SALMEC-05-D-0051.

Recommendation 4. We recommend that the Contracting Officer for the Department of State,
Office of Acquisitions Management, obtain reimbursement of      paid for unallowable
costs to Karn Charuhas Chapman & Twohey on Contract No. SALMEC-05-D-0051.

Recommendation 5. We recommend that the Contracting Officer for the Department of State,
Office of Acquisitions Management, review future modification proposals to Karn Charuhas
Chapman & Twohey on Task Order No. SAQMMA-09F-2071 under Contract No.SALMEC-05-
D-0051 to ensure that General and Administrative expenses are not included in the proposals.




                                           11
                                      UNCLASSIFIED
                                       UNCLASSIFIED



                                                                                   Appendix A

                                 Scope and Methodology
       The Department of State (Department), Office of Inspector General (OIG), Office of
Audits, engaged Cotton & Company, LLP (referred to as “we” in this appendix), to conduct a
performance audit of the Foreign Affairs Security Training Center (FASTC), which received
funding provided by the American Recovery and Reinvestment Act of 2009 (Recovery Act).
The audit objective was to determine whether the Department complied with source selection,
pre-award and post-award notices, contract administration, and management control processes
over contracts issued with Recovery Act funds.

        The scope of our audit included a review of the controls in place over Recovery Act
funds of $69,141,848 obligated by the Department for the FASTC project. Our audit included a
review of the architect-engineering (A&E) contract with Karn Charuhas Chapman & Twohey
(KCCT) and the FASTC task order with obligations of $10,093,376 and expenditures through
October 2010 of $4,956,617 using Recovery Act funds. The audit also included a review of the
obligation of $59,048,472 to the General Services Administration (GSA). We conducted our
audit from June 2010 to March 2011.

        We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on the audit objective.

       To meet the audit objective, we used the following methodology:

   	 Reviewed the Department’s Recovery Act External Program Plan to ensure that the
      FASTC project was identified and the plan was complete.

   	 Conducted discussions with pertinent individuals and reviewed documentation available
      to determine how contracting opportunities were made available to potential sources and
      how decisions were made to use competitive practices or existing indefinite delivery,
      indefinite quantity contracts.

   	 Reviewed, for each contract and modification, required postings for the pre-award notice
      for each award to determine whether the pre-award and post-award notices were properly
      posted on the Web site FedBizOpps and included required Recovery Act clauses.

   	 Reviewed, for each contract awarded that was other than fixed price or competitively
      awarded, FedBizOpps to determine whether a post-award notice was posted in a timely
      manner and included requirements of subsections 5.705 and 5.301 of the Federal
      Acquisition Regulation (FAR), including rationale.



                                            12
                                       UNCLASSIFIED
                                       UNCLASSIFIED



   	 Ensured that eligibility requirements were verified for potential subcontractors through
      discussions with Department personnel and document reviews.

   	 Obtained copies of all awards to ensure they were executed and included applicable
      required Recovery Act FAR clauses.

   	 Evaluated, through discussions with Department personnel and document reviews, the
      processes used to monitor contractors.

   	 Obtained and reconciled invoiced amounts to amounts reported on project tracking
      worksheets maintained for this project.

   	 Reviewed invoices, supporting documentation, and approval information to determine
      whether invoices were properly supported, authorized, and considered necessary and/or
      reasonable under the project.

        We discussed the results of our audit with personnel from the Office of Acquisitions
Management and the Bureau of Diplomatic Security during our fieldwork and presented the
results to Department officials on February 1, 2011.

Work Related to the Agreement With the General Services Administration

        The Department used the services of the General Services Administration (GSA) for
FASTC construction. All requirements of the agreement between the Department and GSA were
specified in a memorandum of understanding (MOU).

       GSA’s OIG Real Property Office is responsible for auditing the validity and
appropriateness of the use of Recovery Act funds and is reviewing amounts spent as part of an
audit underway. Therefore, our scope was limited to performing the procedures on the
$59 million obligated to GSA through reimbursable work authorizations as follows:

   	   Reviewed the MOU and verified appropriate approvals.

   	   Reviewed funding documents under the reimbursable work authorization.

   	   Evaluated whether the funds provided through the reimbursable work authorization met
        obligation requirements.

Review of Internal Controls and Automated Systems

        During our review of internal controls, we concluded, overall, that funds were awarded
and distributed in a prompt, fair, and reasonable manner and were used for authorized purposes.
Federal and Department standard processes and procedures were established. We did, however,
identify deficiencies in the execution of established procedures. Controls were not in place to
ensure that pre-award and post-award notices were posted in a timely manner. Also, the
Department did not properly approve subcontractors prior to performance on the indefinite-

                                            13
                                       UNCLASSIFIED
                                        UNCLASSIFIED


delivery, indefinite-quantity (IDIQ) contract task order. Additionally, costs considered to be
unallowable under the IDIQ contract were approved and paid to the contractor through a
modification to the task order.

       Implementing the recommendations contained in this report will assist in ensuring
compliance with stated Office of Acquisitions Management procedures and contract
requirements.

Use of Computer-Generated Data

      We used computer-generated data found in the Global Financial Management System,
comparing amounts on contractor invoices with amounts posted in the system without exception.




                                             14
                                        UNCLASSIFIED
                                  UNCLASSIFIED



                                                                                    Appendix B

                    Estimated Transferable Costs Between
                    Queen Anne’s County and Other Sites
                           as of October 28, 2010
                               Recovery Act       Percentage of
                              Funds Spent on          Work             Estimated
          Task or              Queen Anne’s       Transferrable          Dollars
       Cost Category            County Site       to Other Sites      Transferrable
 Master Programming                 $904,829             100               $900,000
 Master Plan                       1,083,043              75                800,000
 Site Selection                    1,159,685              25                300,000
 National Environmental
 Policy Act (NEPA)                   436,154              50                200,000
 Cost Estimate                        70,448              90                 60,000
 Direct Costs                        189,048             100                190,000
 Site Survey                         313,465               0                      0
 Additional NEPA Work                386,566              25                100,000
 Public Relations                   413,379               50                200,000
 Totals                          $4,956,617                              $2,750,000

Source: Contracting Officer’s Representative, Bureau of Administration, Office of Logistics
Management, for Karn Charuhas Chapman & Twohey Task Order No. SAQMMA09F2071 under
Contract No. SALMEC-05-D-0051.




                                       15
                                  UNCLASSIFIED
                                          UNCLASSIFIED



                                                                                            Appendix C

                        Karn Charuhas Chapman & Twohey 

                  Task Order No. SAQMMA-09F-2071 Funding as of 

                      Modification 11, Issued on March 8, 2011

                                                                                 Funding 

                                                                                Allocation 

                                                                                   as of 

                                                                               Modification 11         Total
Queen Anne’s County Site
A&E Services for FASTC Project in Accordance With June 4, 2009,                      $4,181,039
Statement of Work
Environmental Impact Statement                                                                0
Boundary, Topographical, Utility, and Wetlands Surveys                                  104,488
Environmental Compliance Services                                                       257,711
Public Affairs Support for Workshops, Public Meetings, and Presentations                413,379
   Total Queen Anne’s Site Work                                                                       $4,956,617
Other Sites
Ft. Pickett, Virginia, Planning Workshop                                                $77,495
Site Visits, Test Fits, and Narratives for Three Additional Sites                        67,752
Cost Comparison of Two Sites                                                             18,739
Recovery Act FASTC Project and Alternative Sites as Directed :
                                                                                      4,972,773
Feasibility Study, Master Plan, and Construction Phase 1 Documents
    Total Other Sites                                                                                 5,136,759

Total                                                                                               $10,093,376

Source: Department of State, Office of Acquisitions Management, Order No. SAQMMA09F2071, Modification 11,
March 8, 2011.




                                               16
                                          UNCLASSIFIED
                                UNCLASSIFIED



                                                                                      Appendix D



                                                United States Department of State
                                                Washington, D.C. 20520


                                                AUGUST 3, 2011


MEMORADUM


TO:          OIG/AUD - Richard Astor

FROM:

SUBJECT: Draft       on                   Provided by the American Recovery
         and Reinvestment Act for the Foreign Affairs Security Training
         Center, (AUD/CG- II -XX, June 2011)

REF:        OIG Memo dated 717111 to AlLMlAQM

Please find below the Bureau of Administration's response to the subject report
regarding recommendations I thru S.

Recommendation 1: We recommend that the Contracting Officer for the
Department of State, Office of Acquisitions Management, ensure that pre-award
and post-award notices are posted as required by the Federal Acquisition
Regulation under the American Recovery and Reinvestment Act of 2009 on any
future task orders or modifications made to Contract No. SALMEC-OS-D-OOSI
using Recovery Act funds for the Foreign Affairs Security Training Center project.

AlLM/AOM Response: AQM agrees with the recommendation. The Branch
Chief responsible for award and administration of the ARRA funded contracts in
the Facilities Design and Construction Division has provided additional training to
the individuals responsible for the solicitation and administration of the ARRA
funded actions. The training and discussion addressed the special and unique
requirements necessary to correctly and successfully process and advertise ARRA
funded procurements from inception through completion.

 Recommendation 2: We recommend that the Contracting Officer for the
Department of State, Office of Acquisitions Management, ensure that
documentation is maintained to support evaluation and selection efforts for any




                                     17 

                                UNCLASSIFIED
                                 UNCLASSIFIED





contracting action funded by the Recovery and Reinvestment Act for the Foreign
Affairs Security Training Center project, including those actions issued under
Contract No. SALMEC-OS-D-OOSI.

AILMlAOM Response: AQM agrees with the recommendation. The requirement
to obtain, maintain, and properly file documentation for all contract actions,
including those funded by ARRA funds has been addressed with Branch staff. The
Branch Chief for the section responsible for administration of this ARRA contract
action places appropriate and necessary emphasis on the need to maintain file
documentation to evidence and provide history of the acquisition process and
contractor performance.

Recommendation 3: We recommend that the Contracting Officer for the
Department of State, Office of Acquisitions Management, ensure that all
subcontractors are approved before they work on the Recovery and Reinvestment
Act-funded Foreign Affairs Security Training Center project task order issued
under Contract No. SALMEC-OS-D-OOSI.

AlLM/AOM Response: AQM agrees with the recommendation. Prime
contractors and the Contract Specialists for each contract action will be reminded
of the contract requirement that all subcontractors be identi tied prior to them being
hired by the contractor to performance under the contract. As a minimum, the
Contract Specialist will be required to review the excluded parties listing and
contact Diplomatic Security to confirm security clearances as appropriate.

Recommendation 4: We recommend that the Contracting Officer for the
Department of State, Office of Acquisitions Management, obtain reimbursement of
$23 ,127 paid for unallowable costs to Karn Charuhas Chapman & Twohey on
Contract No. SALMEC-OS-D-OOSI.

AILMlAOM Response: A review of this apparent unallowable cost included in
the contract price will be conducted. If it is found that this separate element for
General and Overhead expense which, by contract must be included in the fully
burdened labor rates, the Contracting Officer will take the necessary action to
recover the funds. If the element of cost is found to be an allowable expense that is
incorrectly described as a General and Overhead expense by the contractor, the
contractor will be reminded of the need to attach the correct identifying
nomenclature with each element of cost/price. In either eventuality, branch
personnel will be trained and reminded of the requirement that all elements of price




                                      18 

                                 UNCLASSIFIED

                                UNCLASSIFIED





or cost must be reviewed in detail to identify and confirm that only allowable and
allocable cost and price elements are allowed under the contract.

Recommendation 5: We recommend that the Contracting Officer for the
Department of State, Office of Acquisitions Management, review future
modification proposals to Kam Charuhas Chapman & Twohey on Task Order No.
SAQMMA-09F-2071 under Contract No.SALMEC-OS-D-OOSl to ensure that
General and Administrative expenses are not included in the proposals.

AlLMlAOM Response: Branch personnel will be trained and reminded of the
requirement that all elements of price or cost must be reviewed in detail to identify
and confirm that only allowable and allocable cost and price elements are allowed
under the contract.




                                     19 

                                UNCLASSIFIED

FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                 of Federal programs

            and resources hurts everyone.




         Call the Office of Inspector General

                      HOTLINE

                     202/647-3320

                  or 1-800-409-9926

        to report illegal or wasteful activities.



               You may also write to

             Office of Inspector General

              U.S. Department of State

               Post Office Box 9778

                Arlington, VA 22219


       Please visit our Web site at oig.state.gov


           Cables to the Inspector General

          should be slugged “OIG Channel”

              to ensure confidentiality.

UNCLASSIFIED





UNCLASSIFIED

